No. 213fa tfje

Supreme Court of tfje fHntteb States
Nicholas L. Triantos,
Petitioner
v
Deutsche Bank National Trust Company, as
Trustee for Morgan Stanley ABS Capital I Inc.,
Trust 2004-E4, Mortgage Pass-Through
Certificates, Series 2004-HE4, New Century
Mortgage Corporation, Bank of America, N. A.,
Select Portfolio Servicing, Inc., Countrywide
Home Loans. Inc., Guaetta &Benson, LLC.,
Audrey G. Benson, Peter V. Guaetta, and Sarah
T. Fitzpatrick
Respondents

APPENDIX

Nicholas L. Triantos, Esq.
Lynnfield Woods
200 Broadway Suite 302
Lynnfield, MA 01940
617-828-4848
nltlaw@nltle gal. com
Pro-Se Petitioner,

February 15, 2021

/A

Case: 17-1938

Document: 00117643323

Page: 1

Date Filed: 09/16/2020

Entry ID: 6367628

United States Court of Appeals
For the First Circuit
No. 17-1938
NICHOLAS L. TRIANTOS,
Plaintiff - Appellant,
v.
DEUTSCHE BANK NATIONAL TRUST COMPANY, as Trustee for Morgan Stanley ABS
Capital I Inc. Trust 2004-HE4, Mortgage Pass-Through Certificates, Series 2004-HE4;
SELECT PORTFOLIO SERVICING, INC.; BANK OF AMERICA, N.A.,;
GUAETTA & BENSON, LLC; AUDREY G. BENSON; PETER V. GUAETTA;
SARAH T. FITZPATRICK; COUNTRYWIDE HOME LOANS, INC.,
Defendants - Appellees,
NEW CENTURY MORTGAGE CORPORATION,
Defendant.

Before
Howard, Chief Judge.
Thompson and Kayatta, Circuit Judges.
JUDGMENT
Entered: September 16,2020
Appellant Nicholas Triantos ("Triantos") challenges the district court's decisions denying
his motion to remand to state court and granting the defendants' motions to dismiss. After careful
consideration of the parties' arguments on appeal and the record, we affirm.
The single federal claim presented in the underlying complaint sufficed to anchor federalquestion jurisdiction, as the district court properly concluded. We are unpersuaded by the
appellant's remaining jurisdictional arguments on appeal.
We likewise affirm the district court's decision dismissing the claims. To the extent that we
do not deem the appellant's various challenges to the validity of the 2014 foreclosure waived for
lack of development, see United States v. Zannino. 895 F.2d 1, 17 (1st Cir. 1990), we conclude

Case: 17-1938

Document: 00117643323

Page: 2

Date Filed: 09/16/2020

Entry ID: 6367628

that they are either squarely foreclosed by precedent or that they lack merit. See, e.e.. Havden v.
HSBC Rank USA. Nat'l Ass'n. as Tr. for Wells Fargo Asset Sec. Corp. Mortg. Asset-Backed Pass
Through Certificates Series 2007-PA3. 956 F.3d 69, 71 (1st Cir. 2020) (per curiam) (rejecting
assertion "that the acceleration of the maturity date of a note affects the five-year limitations period
for the related mortgage") (emphasis in original); Harry v. Countrywide Home Loans. Inc.. 902
F.3d 16, 19 (1st Cir. 2018) (acceleration of note has no impact on the limitations period for a
mortgagee's right to foreclose); Nims v. Bank of New York Mellon. 97 Mass. App. Ct. 123, 124,
142 N.E.3d 1124, 1126 (concluding that acceleration of a note secured by a mortgage does not
accelerate the '"maturity date' of the mortgage for purposes of the obsolete mortgage statute"), rev,
denied. 485 Mass. 1105, 150N.E.3d 1121 (2020) (table).
Affirmed. See 1st Cir. Loc. R. 27.0(c).
By the Court:
Maria R. Hamilton, Clerk
cc:
Nicholas L. Triantos
Peter Francis Carr II
Michael P. Robinson
Connie Flores Jones
Peter V. Guaetta

Case l:17-cv-10550-WGY Document 69 Filed 09/21/17 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

Civil Action
No: 1:17-cv-10550-WGY
TRIANTOS
Plaintiff
v.
DEUTSCHE BANK NATIONAL TRUST COMPANY
Defendant

ORDER OF DISMISSAL
YOUNG. D.J.
After a hearing held on September 14,2017, this Court Orders the above entitled action
be and hereby is Dismissed for the reasons stated on the record.

Robert M. Farrell
Clerk

By:

September 21, 2017

/s/ Jennifer Gaudet
Deputy Clerk

Additional material
from this filing is
available in the
Clerk's Office.

